<html>
<title> - U.S. POLICY TOWARD LATIN AMERICA IN 2009 AND BEYOND</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
          U.S. POLICY TOWARD LATIN AMERICA IN 2009 AND BEYOND

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2009

                               __________

                            Serial No. 111-2

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
47-233                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7e190e113e1d0b0d0a161b120e501d111350">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
ADAM SMITH,                          JOE WILSON, South Carolina
    Washington<greek-l>Until 2/9/    JOHN BOOZMAN, Arkansas
    09 deg.                          J. GRESHAM BARRETT, South Carolina
RUSS CARNAHAN, Missouri              CONNIE MACK, Florida
ALBIO SIRES, New Jersey              JEFF FORTENBERRY, Nebraska
GERALD E. CONNOLLY, Virginia         MICHAEL T. McCAUL, Texas
MICHAEL E. McMAHON, New York         TED POE, Texas
JOHN S. TANNER, Tennessee            BOB INGLIS, South Carolina
GENE GREEN, Texas                    GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                   ELIOT L. ENGEL, New York, Chairman
GREGORY W. MEEKS, New York           CONNIE MACK, Florida
ALBIO SIRES, New Jersey              MICHAEL T. McCAUL, Texas
GENE GREEN, Texas                    CHRISTOPHER H. SMITH, New Jersey
GABRIELLE GIFFORDS, Arizona          DAN BURTON, Indiana
ENI F. H. FALEOMAVAEGA, American     ELTON GALLEGLY, California
    Samoa                            RON PAUL, Texas
DONALD M. PAYNE, New Jersey          JEFF FORTENBERRY, Nebraska
JOHN S. TANNER, Tennessee            GUS BILIRAKIS, Florida
BARBARA LEE, California
JOSEPH CROWLEY, New York
RON KLEIN, Florida
              Jason Steinbaum, Subcommittee Staff Director
        Eric Jacobstein, Subcommittee Professional Staff Member
          Francis Gibbs, Republican Professional Staff Member
                  Julie Schoenthaler, Staff Associate


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Sergio Bendixen, President, Bendixen & Associates............    16
Cynthia McClintock, Ph.D., Professor of Political Science and 
  International Affairs, Director, Latin American and Hemispheric 
  Studies Program, The George Washington University..............    27
Mr. Eric Farnsworth, Vice President, Council of the Americas.....    37
Ray Walser, Ph.D., Senior Policy Analyst for Latin America, 
  Douglas and Sarah Allison Center for Foreign Policy Studies, 
  The Heritage Foundation........................................    43

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Eliot L. Engel, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     5
The Honorable Connie Mack, a Representative in Congress from the 
  State of Florida: Prepared statement...........................     9
Mr. Sergio Bendixen: Prepared statement..........................    19
Cynthia McClintock, Ph.D.: Prepared statement....................    30
Mr. Eric Farnsworth: Prepared statement..........................    40
Ray Walser, Ph.D.: Prepared statement............................    46

                                APPENDIX

Material Submitted for the Hearing Record........................    65


          U.S. POLICY TOWARD LATIN AMERICA IN 2009 AND BEYOND

                              ----------                              


                      WEDNESDAY, FEBRUARY 4, 2009

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 11:20 a.m. in 
room 2172, Rayburn House Office Building, Hon. Eliot L. Engel 
(chairman of the subcommittee) presiding.
    Mr. Engel. Good morning, everybody. Sorry for the delay, 
and welcome to what I believe is the first hearing of any 
subcommittee of the Foreign Affairs Committee. So we are 
honored that we have such a large crowd and an overflow. I was 
a hero out there being greeted by all these people. It was very 
nice to know that there is so much interest in foreign policy 
and in what the Congress is going to do this year with the new 
administration and the new Congress.
    A quorum being present, the Subcommittee of the Western 
Hemisphere will come to order. It is my pleasure to welcome 
everyone to today's hearing on United States policy toward 
Latin America in 2009 and beyond. As I mentioned, this is our 
first subcommittee hearing in the 111th Congress. I want to 
welcome all of the members on the subcommittee on both sides of 
the aisle, and, in particular, I would like to extend a warm 
welcome to my good friend and our new ranking member, Connie 
Mack.
    I am delighted that Congressman Mack is the ranking member. 
He and I have worked closely together on many things, and I 
think I was quoted in one of the Florida newspapers not so long 
ago as saying that Congressman Mack was a very important and 
welcome member of our subcommittee. I know that as ranking 
member he will even be more so. I look forward to working 
closely with you and I am very delighted that you are the 
ranking member.
    I must also say something about the former ranking member, 
Dan Burton. My gratitude to him as well. He remains on the 
subcommittee but is becoming ranking member of the Subcommittee 
on the Middle East. Dan Burton and I have traveled together, 
worked together, and have had a wonderful relationship, and I 
know that that will extend to Connie Mack and myself as well.
    Barack Obama's election was greeted with excitement 
throughout the hemisphere. When I traveled to Paraguay, Chile 
and Peru shortly after the Presidential election, there was a 
real sense of optimism, both among the heads of state and the 
citizens of these countries. I believe that the goodwill 
generated by President Obama's election will itself do a great 
deal to reinvigorate United States/Latin American relations.
    During his campaign, President Obama said, ``My policy 
toward the Americas will be guided by the simple principle that 
what is good for the people of the Americas is good for the 
United States.'' That means measuring success not just through 
agreements among governments, but also through the hopes of a 
child in the favelas of Rio, the security for the policemen in 
Mexico City, and the answered cries of political prisoners 
heard from jails in Havana.
    This bottom up and direct to the people approach is 
precisely what is needed in the Americas right now. With 40 
percent of the region's population, some 209 million people, 
living in poverty, it is essential that we sharply focus our 
attention on the social agenda in the Americas. I would like to 
briefly outline what I think could be some positive steps taken 
by the Obama administration early on to further deepen United 
States/Latin American relations.
    First and foremost, and I want to emphasize this, I believe 
that President Obama's participation in April's Summit of the 
Americas in Trinidad and Tobago would send an extremely 
positive message to the heads of state from Latin America and 
the Caribbean. I intend to be there, I hope many members of our 
subcommittee will be there, and I hope that we will be active 
partners because it is very, very important.
    The Summit of the Americas is held approximately once every 
4 years and this is a wonderful opportunity for the 
administration to show that Latin America and the Western 
Hemisphere is a priority.
    Secondly, as Chairman Berman moves forward with foreign aid 
reform and the Obama administration prepares its fiscal year 
2010 budget, it is essential that we increase funding for the 
countries in the Western Hemisphere.
    I would venture to say that no member of this subcommittee 
would disagree with me that we need to significantly increase 
foreign aid to our neighbors in Latin America and the 
Caribbean. Quite frankly, budgets show priorities, and when 
foreign aid to the hemisphere lags behind, our allies 
understand the message that is being sent to them.
    Thirdly, cooperation between the United States and Brazil 
significantly expanded during the Bush administration. This 
relationship needs to be further deepened under President 
Obama. The U.S./Brazil Memorandum of Understanding on Biofuels 
is the cornerstone of our bilateral relationship and represents 
the start of a program to help countries in the region to 
develop domestic energy supplies, but it is simply not enough.
    The U.S./Brazil MOU (Memorandum of Understanding) already 
supports some so-called third countries but needs to be 
expanded to additional countries in Central America and the 
Caribbean most of whom are more than 90 percent dependent on 
imported oil, predominantly from Venezuelan President Hugo 
Chavez. President Obama has spoken of establishing an energy 
partnership for the Americas, something I strongly support.
    As the House sponsor of the Western Hemisphere Energy 
Compact Act in the 110th Congress, along with Senator Richard 
Lugar, I look forward to working with President Obama on a 
hemispheric energy partnership.
    Fourth, we must continue to support our friends in Mexico 
through the Merida Initiative. This is very important, but we 
also need a more holistic, counterdrug strategy that includes 
greater assistance to Central America and an expansion of 
Merida Initiative to the nations of the Caribbean.
    At the same time, it is critical to get our own House in 
order. This means reducing the demand for drugs in the United 
States by putting more money into domestic prevention and 
treatment programs. It also means stemming the flow of firearms 
into Mexico. Shockingly, 90 percent, and we learned this 
through hearings that we have held in this subcommittee over 
the past couple of years, 90 percent of the guns that are used 
in drug-related violence in Mexico originate in the United 
States.
    I will soon be sending a letter to President Obama urging 
him to return to enforcement of the ban on imported assault 
weapons that was previously enforced by Presidents H.W. Bush 
and Bill Clinton but not enforced by the most recent Bush 
administration. Returning to enforcement of this ban would help 
reduce violence in the United States and would also curb 
violence in Mexico by limiting the number of assault weapons 
flowing from the United States into Mexico.
    Fifth, I would urge President Obama to focus on Ecuador and 
Paraguay. It may seem odd that I mention these two small 
countries. I visited both, the subcommittee visited both, and I 
believe they are both countries where increased engagement by 
the Obama administration could go a long way. Presidents Correa 
and Lugo are both looking for ways to work with the United 
States.
    In Ecuador, I believe the Bush administration made a 
mistake in just reaching out to President Uribe, whom I greatly 
admire and respect, but not to President Correa after the March 
1 Ecuador/Colombia border crisis. In the coming years we must 
do more to support Ecuador's efforts to combat the FARC and 
help refugees at the country's northern border.
    In Paraguay, President Lugo was the first President to be 
elected not from the Colorado Party in 60 years. President Lugo 
showed his interest in a strong relationship with the United 
States by visiting President Bush in Washington in October. 
Lugo easily could have waited for a new administration to take 
office, but he wanted to demonstrate right away the value he 
places in a good relationship with the United States. He said 
that to me in Asuncion.
    I hope to introduce legislation later this year that would 
add Paraguay as an Andean Trade Preference Act (ATPA) 
beneficiary country.
    Sixth, we must continue to support disaster recovery 
efforts in Haiti. At the same time, it is essential to help 
Haiti prepare for the next disaster. Haiti is the poorest 
country in the hemisphere and the need there could not be 
greater.
    I would, of course, be remiss not to mention two countries 
of paramount importance to this subcommittee: Colombia and 
Cuba. In the case of Colombia, I believe that it is important 
for the new administration to continue to cultivate our strong 
relationship with President Uribe who has been instrumental in 
reducing kidnappings and homicides in his country.
    I am very impressed with President Uribe and what he has 
done for the people of Colombia, and we need to help them. Of 
course we will want to talk more about Cuba today since Cuba 
policy is at the forefront of any discussion on United States 
policy toward Latin America. Finally, I want to bring 
everyone's attention, I said this on the House floor yesterday, 
to the weekend's heinous attack on a synagogue in Caracas, 
Venezuela.
    The attack is clearly the result of a climate of fear and 
intimidation inspired by the Venezuelan Government and by Hugo 
Chavez. On Monday I sent a letter, along with 19 of my 
colleagues on the Foreign Affairs Committee, to President 
Chavez urging him to end the bullying and harassment of the 
Jewish community in Venezuela and to extend the community the 
robust protection it deserves in light of the threats it faces.
    The Venezuelan Government must quickly change its tune with 
regard to the country's Jewish community. I am now pleased to 
introduce our witnesses, and then I will call on Congressman 
Mack. Your testimony today will be crucial as we shape the 
agenda for the subcommittee in the coming Congress. Sergio 
Bendixen is president of Bendixen & Associates and a leading 
pollster in the U.S. and Latin America. Cynthia McClintock is a 
professor of Political Science and director of the Latin 
American and Hemispheric Studies Program at George Washington 
University.
    Next, Eric Farnsworth, who is an old friend--not really 
old, Eric, but a friend--and has been in our subcommittee many 
times is the vice president of the Council of the Americas. 
Last, but not least, Ray Walser is a senior policy analyst for 
Latin America at The Heritage Foundation. Welcome to all of 
you. I am now pleased to call on Ranking Member Mack for his 
opening statement.
    [The prepared statement of Mr. Engel 
follows:]<greek-l>Engel deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Mack. Thank you, Mr. Chairman, and thank you for your 
kind words. I look forward to working with you. We have a great 
working relationship, as well as a friendship that goes beyond 
the walls of Congress, and so I appreciate your kind words and 
look forward to working on behalf of the people of the United 
States on behalf of the people of Latin America with you, and 
also would like to say hello and that I look forward to working 
with all of our colleagues on the committee, both on the left 
and the right.
    I think as we tackle some of the issues that you mentioned 
we do so best when we have open debate with opposing ideas and 
we are willing to discuss them openly to come up with solutions 
that will benefit all. So thank you to all the members who are 
here as well. There are a lot of challenges as you have 
outlined in your opening statement, Mr. Chairman, in the 
Western Hemisphere.
    My hope is that we can take each one of those challenges, 
whether it is human rights violations, drug trafficking, 
poverty, the issues dealing with energy and oil, we can take 
each one of those issues, look deep inside of us and work on 
behalf of the people of Latin America. As you quoted, I believe 
President Obama has said that the best way to help is to help 
the people of Latin America, something like that.
    I am sure you said it much more eloquently than I did. It 
is true. The best way that we can move forward and Latin 
America can move forward is by supporting the people in Latin 
America. By supporting the people in Latin America, they will 
force a change with inside their own governments that we don't 
have to do directly.
    You mentioned Venezuela and you know that I am a critic of 
Hugo Chavez and will continue to be a critic of Hugo Chavez 
because I believe the policies he has put forward in his 
country have destroyed the hopes and dreams of the people of 
Venezuela, and he hopes to spread that same message beyond the 
walls of his own country.
    We see that with the relationships that he has forged with 
Iran and Russia. It seems that if you are an enemy of the 
United States, then you are a friend of Hugo Chavez. So I hope 
that our committee will continue to stay focused on the 
problems and challenges that we face as they relate to Hugo 
Chavez and his government in Venezuela.
    Cuba is also another area where I am sure we will have 
hopefully a lot of hearings, and conversations and debate about 
the policies moving forward with the United States and Cuba. I 
have seen nothing has changed in Cuba. You still have a Castro 
who has not shown us that he is willing to unclench his fist, 
and therefore, we need to stay vigilant in our actions toward 
Cuba and ensure that our policies are those that support the 
people of Cuba.
    Mr. Chairman, I think that we have got a great panel today 
for discussion, and I look forward to many, many more and hope 
that we will continue to work together and make our foreign 
policy decisions based upon what is right for the people of the 
United States and Latin America. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mack 
follows:]<greek-l>Connie Mack deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Mr. Mack. Let me first also announce 
that the subcommittee in couple of weeks will be visiting 
Mexico, Nicaragua and Jamaica as a fact-finding trip. I would 
like to give members a chance, if they would like, to make an 
opening statement. They don't have to. We can hear our 
witnesses. Is there any member on this side of the aisle that 
wishes to make an opening statement?
    Mr. Mack. Mr. Chairman? Real quick. I ask unanimous consent 
to submit additional documents for the record.
    Mr. Engel. Without objection.
    Mr. Mack. Thank you.
    Mr. Engel. Yes. I didn't see who was raising their hand. I 
am sorry. Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. I also would 
like to welcome our new ranking member, Mr. Mack, to our 
subcommittee, as well as our distinguished witnesses this 
morning. Mr. Chairman, we deeply appreciate your leadership and 
your willingness continuously to serve as the chairman of our 
subcommittee, and especially addressing the serious needs of 
our neighbors in Latin America.
    Mr. Chairman, a new wind is blowing. We have a saying in 
the Islands that goes something like this: [Representative 
Faleomavaega spoke in his native language] which means a good 
wind is blowing, but the sail is torn. To that extent, Mr. 
Chairman, I think we have mended the sail, the good wind is 
blowing, we have a new administration in Barack Obama, and I 
think if there is anything else that we have ever learned in 
what he has suggested in our foreign policy system is, for a 
change, let us listen.
    Let us listen to the leaders of our neighbors in Latin 
America, their concerns, rather than dictating to them as what 
they should be doing. Mr. Chairman, as you know, for over the 
years I have always taken a great interest in the needs and the 
welfare of the native indigenous Indians throughout Latin 
America.
    You had stated earlier something to the extent that 290 
million people in Latin America live in dire poverty. I would 
venture to say that probably 200 million of those people are 
indigenous Indians. I think, Mr. Chairman, we deeply need to 
address the important issue of what has happened to the native 
indigenous peoples of Latin America after 500 years of being 
smitten and conquered, and as a conquered people, marginalized 
in just about every form of economic, social, political 
opportunities and development.
    I think this is something our subcommittee really needs to 
look into a little more. I note with interest that the country 
of Bolivia, which is about 60 percent or more population are 
indigenous Indians. I think just yesterday the New York Times 
had a cover page on the fact that this country of Bolivia 
produces half of the lithium of the world which gives to rise 
that I think the Latin American countries have tremendous 
resources, and I think something to the effect that we need to 
look at this a little more seriously.
    I do want to say, Mr. Chairman, just yesterday in my office 
we had distinguished members of Parliament from the Republic of 
Venezuela. I know we may have different opinions about Mr. 
Chavez, but I think this is something also as an opportunity, 
let us get to the roots of the problem as to why Mr. Chavez has 
always taken a negative attitude toward America.
    Why for the past 8 years that we have treated, have this 
relationship or this dialogue that it seems to be very 
negative. I seem to get the impression that President Obama 
wants to reach out even to those neighbors of ours that may not 
necessarily agree with our political systems, but at least 
establish some things that we could go on. I have always said 
that there are more good than negatives in any country among 
any people that we could better treat.
    I agree with you, whatever happened, the bombing of the 
synagogue in Venezuela needs to be addressed, and I hope Mr. 
Chavez will look at this issue seriously because if it happens 
to our Jewish community in Venezuela, it could happen to 
anybody. I cannot agree with you more in that respect. So with 
that, Mr. Chairman, fortunately I have another meeting I have 
to preside over, but I really would like to ask our friends and 
experts, if you have any information in terms of the status of 
the needs of our indigenous Indians throughout Latin America, 
we really need to address their issues and their needs. With 
that, Mr. Chairman, thank you again.
    Mr. Engel. Thank you, Mr. Faleomavaega. Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman. First of all, 
let me just say that our subcommittee is really very fortunate 
to have you, Mr. Chairman, and our distinguished member, Mr. 
Mack, at the helm, two extraordinary lawmakers and real 
leaders, and so I think we are blessed and I think the people 
of Central and South America will continue to realize that this 
committee is their advocate and we want to forge a closer bond 
with them.
    For 8 years I chaired the Human Rights and International 
Operations Subcommittee of the Foreign Affairs Committee. We 
held a number of hearings on Cuba, as you know, and we actually 
had one hearing on Elian Gonzalez when he was sent back and 
have raised issues of political prisoners on that gulag nation 
state for years.
    I was actually with Armando Valladares when he was named in 
the 1980s to be our ambassador at the Human Rights Commission 
in Geneva and watched as he very masterfully corralled support 
for a resolution on Cuba that sent a fact-finding mission to 
Cuba to look at the prisons. That was the first time it had 
been done. The ICRC and others have never since been allowed 
in, regrettably.
    Unfortunately, the Castro regime, as you know, Mr. Chairman 
and Mr. Mack, retaliated against those people who came forward. 
That abomination has to stop. Congressman Frank Wolf and I had 
tried again to go to Cuba this weekend to seriously engage the 
Cuban Government on the human rights issue. It looks like we 
will not be allowed to go there.
    We want to raise issues like Dr. Oscar Biscet and the 
others who have been absolutely wrongfully incarcerated, have 
been tortured, have been put into solitary confinement; their 
lives are gravely at risk, and what do we get back from the 
Cuban Government? Nothing. They do not allow any kind of 
contact by parliamentarians and by, like I said, the 
International Committee for the Red Cross and others.
    I am sure many people in this room have read Armando 
Valladares' book ``Against All Hope.'' I have read it twice. It 
is an absolute tremor on what the Castro regime has done and 
has continued to do against political prisoners. The use of 
torture is systematic, it is pervasive and members of that 
government ought to be at The Hague being held for crimes 
against humanity.
    So I do hope that we will spend at least a considerable 
amount of our time and our witnesses' time focusing on--maybe 
this is an opportunity with Barack Obama now in the Presidency 
to really seize the moment and get those political prisoners 
out of harm's way before more of them die. I yield back.
    Mr. Engel. Thank you, Mr. Smith. Mr. Klein?
    Mr. Klein. Thank you, Mr. Chairman and Ranking Member. 
Appreciate the outline of the issues as extremely well-
presented this morning. Just to add a few points to this. The 
history of the United States' relations in Latin America has 
been somewhat consistent over the last couple of decades. It is 
not just this past administration; it predates that in terms 
of, in my opinion, a somewhat lackluster approach and a 
comprehensive view.
    We have pushed trade, and we recognize that free trade is 
important in our hemisphere, but beyond that, it is not just 
trade. Trade goes so far in terms of the business community and 
some opportunity for employment, but it is that underneath part 
of the relationship that needs to be further developed.
    The reason Mr. Chavez has had some success in his 
neighboring countries is because he has applied some of that 
oil money to healthcare and some things underneath there to 
attract local people, people that don't have big relationships 
with their central government or other people. That has been 
somewhat effective.
    We need to do a better job of showing the commonality of 
interest that we have, the values that we share, the free 
enterprise system that we believe in, all the various things 
that can make their life better in a region, and it is very 
important. Venezuela is a particular problem because we see the 
use of the oil money, the attitude, the threats, the Venezuelan 
Jewish community attack. That is unacceptable, and, as I know, 
there are many people in this country that view it that way.
    Even our transportation secured administration has taken 
the position that U.S. passengers traveling back and forth 
between Venezuela and the United States are not safe. I mean, 
these are serious problems that need to be addressed. At the 
same time, we have to look inward in the United States. The 
chairman mentioned energy policy. We cannot deal with Venezuela 
effectively until we recognize that we are buying millions of 
barrels of oil and propping up economically a country that we 
view as certainly not acting in our best interests, and in many 
ways, hostile to our interests.
    So this relates to our internal energy policy and us 
dealing with energy alternatives and internal energy policies 
that will allow us to remove ourselves from that commitment to 
buying oil from that country, as well as having an energy 
policy that is comprehensive for the entire Western Hemisphere, 
which I certainly support as well.
    So, Mr. Chairman, I look forward to working with all of you 
and our experts, and looking forward to hearing from them 
today, the comments that they have, to help develop a policy 
that will be comprehensive and suit us well in the future. 
Thank you, Mr. Chairman.
    Mr. Engel. Thank you, Mr. Klein. Mr. Fortenberry?
    Mr. Fortenberry. Mr. Chairman, thank you for your 
leadership, and I thank Mr. Mack as well for devoting a 
significant amount of your public policy energy to these 
concerns.
    I have been a member of the Foreign Affairs Committee since 
coming to Congress, but this is my first service on this 
particular subcommittee, so I look forward to working with both 
of you to strengthen our partnerships and our resolve in our 
own neighborhood, confronting human rights abuses, as well as 
endemic poverty, but also creating a platform for new dialogue 
and new ways of thinking about creating hope and opportunities 
among all of our people. So I thank you and look forward to 
serving with you.
    Mr. Engel. Thank you very much. Mr. Meeks?
    Mr. Meeks. Thank you, Mr. Chairman. I want to thank you for 
your leadership on this committee in moving forward, and I 
think that we can tell by the way that this room is filled 
today the interest in the Western Hemisphere and understanding 
the importance that the Western Hemisphere is to the United 
States of America. It is a new day. You know, that is a change 
that we have got to understand and recognize that our dear 
friends to our south are indeed critically important to us here 
in the United States.
    I think as <greek-l>the  deg.Chairman Faleomavaega said, 
and as President Obama said, that we need to reach out. Last 
night, I had a small dinner with the Assistant Secretary of 
State, Tom Shannon, and what he said was, I think he was 
quoting someone else, I can't remember who, but he said that a 
crisis is a terrible thing to waste. And so when I hear that we 
have these challenges, we can call them a crisis in Venezuela, 
but there is also opportunity.
    We can call it a crisis in Cuba, but there is also 
opportunity. There is a crisis in Colombia, there is also 
opportunity. There is a crisis when you look at the plight of 
those who are African, Latinos and those who are indigenous to 
the nation, but there is also opportunity. That is what I think 
that we need to look at and look at where we can open those 
doors to make things better because when we make things better 
there, we make things better for ourselves.
    That being said, you know, as we talk about what is going 
on today, and of course all of our concerns here in the United 
States right now is the global financial crisis. As a result of 
that, many of our concerns are definitely focused on the 
stability of the United States' economy. I am also tremendously 
concerned about our neighbors in the hemisphere and how the 
shock from the financial crisis might impact the recent social 
and economic gains that they have seen.
    Without a doubt, when you go to South America, Central 
America and the Caribbean nations, they can do many things to 
prevent their loss of their progress, but it is also very clear 
that they will need external support. I have watched the 
transformation of many of these countries in the Western 
Hemisphere with great hope and anticipation in the past few 
years and I now watch with anxiety and fervent hope that there 
will not be much slippage backwards in these trying times.
    The economies of Latin America and the Caribbean grew at an 
average annual rate of nearly 5.5 percent for the 5 years 
between 2004 and 2008, lending credence to the once widely-
accepted idea that they were decoupling from slower growing 
developed economies, particularly the United States. Today, we 
find that despite years of economic reform and growth, the 
region is not inoculated from the financial shocks 
reverberating from the United States.
    Our great lesson in this moment of crisis is that we are 
all critically linked together and interdependent. Latin 
America and the Caribbean, not unlike most developed and 
emerging markets are today, find that they are indeed subject 
to the movement of world markets and trends. However, unlike 
the United States, and China and other similarly situated 
nations, Latin America and the Caribbean governments are for 
the most part ill-equipped to put 5 to 7 percent of GDP into a 
stimulus package.
    Even those nations that have been buoyed by high revenues 
in the past now find that they have reduced their ability to 
act because of falling commodity prices. None of this bodes 
well for South and Central America and the Caribbean. Suddenly, 
nations that had the gun to feel the benefits of sustained 
growth are now turning to external stimulus packages for help.
    They are looking to international financial institutions 
more than they have in a long while. Until recently, there was 
noticeably a decline in IMF, World Bank and IDB lending to the 
region. That trend has since been replaced with IFIs announcing 
aggressive new lending projects in the region. There are many 
questions to explore if IFIs are to shed for good the negative 
perceptions they have had in the region.
    For example, what are the conditions associated with the 
new liquidity of funds? If the severe policy changes of the 
past return as conditions for lending, will they surely provide 
ill feelings for IFIs? I look forward to hearing from this 
magnificent panel today, and I am particularly interested in 
your views on how Latin America, the Caribbean nations can both 
recover from this crisis and hold on to important long-term 
goals, like poverty reduction, social inclusion and trade 
capacity building. Thank you.
    Mr. Engel. Thank you, Mr. Meeks. Mr. Sires, who has served 
as our vice chair.
    Mr. Sires. Thank you, Mr. Chairman. I will just be very 
brief because I really want to hear what this panel has to say. 
I wasn't going to speak but some of the members expressed by 
thinking so well. I was very disappointed last year to begin 
with when we didn't have a vote on the Colombia free trade 
agreement. I think that would have sent a strong message to the 
region in terms of this country trying to work with all those 
countries.
    I am obviously very interested in the issue of Cuba. I have 
relatives there, a cousin there, and obviously I am very 
interested in the new position that this President is going to 
take. I also believe firmly that we cannot take a country by 
country approach. We have to take a regional approach because 
every one of those countries is important. So I look forward to 
seeing what the new administration is going to do with the lack 
of money that we have now about how we can improve our 
relationship with all those countries.
    I read also the story on Bolivia, the lithium concentration 
that they have in that country. If we are going to move forward 
on cars or battery cars, that is going to be an important 
partner in this process. I am also looking forward to hearing 
what the influence of Russia, China and some of the other 
countries that are going into the region, even in Iran.
    Obviously, I am very concerned about what is going on in 
Venezuela. I see the trend of Venezuela, the abuse against the 
Jewish community in Venezuela, as the same trends that happened 
in Cuba many years ago. So I am really looking forward to what 
the panel has to say. Mr. Chairman, I look forward to working 
with you and the new ranking chair, the member from the 
Republican side. Thank you.
    Mr. Engel. Thank you, Mr. Sires.
    Before I call on our witnesses, I just want to acknowledge 
two friends who are here today, the Ambassador from Colombia, 
Carolina Barco. Welcome. Behind her, Ambassador Villagran from 
Guatemala. Welcome, Ambassador. It is always a pleasure to have 
good Ambassadors here. In fact, when we were at the swearing in 
for President Obama we had a walk through of the Ambassadorial 
section. I said, I have so many friends there, I ought to sit 
with them instead of with the Members of Congress. So welcome. 
<greek-l>Missing quote from Mr. Meeks?  deg.You could tell Mr. 
Meeks is from New York. He has an attitude.
    Let me again welcome the witnesses. We really do appreciate 
your coming here. Part of the hardest job you have is not your 
testimony, it is listening to all of us before you can testify. 
Now we are going to listen to you, and we are very anxious to 
hear what you have to say. Let us start with Mr. Bendixen.

    STATEMENT OF MR. SERGIO BENDIXEN, PRESIDENT, BENDIXEN & 
                           ASSOCIATES

    Mr. Bendixen. Chairman Engel, thank you so much for the 
opportunity and the privilege of addressing your subcommittee 
about our foreign policy toward Latin America at such an 
important time as the new President gives us hope and optimism 
about the future.
    I want to begin by making it clear that in my opinion, 
actually I think it is going to be a very controversial 
opinion, that the political and economic challenges facing our 
Latin American foreign policy are daunting. There are now two 
Latin Americas. The eight countries that make up what I call 
the Socialist Coalition are not our friends. The leaders of 
Venezuela, Bolivia, Ecuador and Cuba had made that clear 
through their words and deeds.
    The Governments of Argentina, Brazil, Uruguay and Paraguay 
have been more careful about their rhetoric and even their 
policies, but they have worked to diminish our power and 
influence in the region. The other Latin America is made up of 
Mexico, Colombia, Peru, Chile, the Central American nations and 
the Dominican Republic. I call them the free market countries.
    The two Latin America models reflect the political reality 
of 2009, and let us not forget that in the 2006 Mexican 
Presidential election, the candidate supported by the countries 
of the Socialist Coalition lost by less than 1 percentage 
point. Could have been a lot worse. Is it just the radical 
Presidents and the leftist politicians that do not like us? No.
    The image of the United States in most of the countries in 
the Socialist Coalition was at an all time low in 2008. For 
example, only 9 percent of adults in Argentina and less than 30 
percent of those in Venezuela and Brazil had a favorable 
opinion of the United States. As I mentioned before, the words 
and deeds of many of the Presidents of the Socialist Coalition 
countries have contributed to the decline of our image and 
influence in the region.
    ``Capitalism is the enemy of humanity,'' says the coup 
d'etat signed by the Presidents of Brazil, Venezuela, Bolivia, 
Ecuador and Paraguay at the World Socialist Forum held in 
Berlin just last week. President Evo Morales of Bolivia 
expelled our Ambassador last September. President Hugo Chavez 
of Venezuela expelled our Ambassador 2 days later.
    As I am sure we all remember, we were offended, all 
Americans were offended, when he called our President the devil 
at the United Nations. Lula, the President of Brazil, yes, he 
is more moderate in his economic policies and rhetoric, but let 
us not forget that he led the movement that is responsible for 
the demise of the U.S.-led free trade agreement to the Americas 
signed in Miami in the middle 1990s.
    President Rafael Correa of Ecuador has ordered the closing 
of our military base in Manta later this year. What factors 
helped create the two Latin Americas? Let us review the six 
characteristics that differentiate the Socialist Coalition 
countries from the free market countries.
    First, all of the free market countries have a free trade 
agreement with the United States. None of the Socialist 
Coalition countries have one. Second, most of the free market 
countries have a large number of their citizens working in our 
country, and therefore, they receive billions of dollars in 
remittances every year. The opposite is true of most of the 
Socialist Coalition countries.
    Third, the image of the United States is positive, very 
positive, among the people of the free market countries and 
very negative among the people of the countries of the 
Socialist Coalition. Fourth, free market economic policies in 
one Latin America, Socialist economic policies in the other 
Latin America. Fifth, our Ambassadors play an important role in 
the free market countries. In contrast, they are almost 
irrelevant in the countries of the Socialist Coalition. As a 
matter of fact, we don't even have one in three of them.
    Sixth, free market countries have increased trade, mostly 
with Europe, Japan and Taiwan since 2000, while China has 
become the most important trade partner for the Socialist 
Coalition countries during the same period of time. One 
statistic says it all: Exports to Latin America from China have 
increased by more than 600 percent since the year 2000. Six 
hundred percent. The equivalent number for the United States, 
little more than a 40 percent increase, less than 6 percent a 
year.
    What do I recommend? Let us be realistic about our 
limitations for the next couple of years. We do not have the 
economic resources or the political credibility to have a major 
impact in the countries that make up the Socialist Coalition. 
Let them be for now.
    Let us target our assistants, let us help our friends, let 
us approve the free trade agreement with Colombia, let us 
implement the agreements with Peru, Chile, Central America and 
the Dominican Republic in a way that maximizes their 
opportunity to achieve progress, let us full fund the Merida 
Initiative and help Mexico fight the drug cartels, let us not 
lose anymore power and influence in Latin America. In 2009, it 
is unfortunately the best we can do. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Bendixen 
follows:]<greek-l>Bendixen deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you very much, Mr. Bendixen. Dr. 
McClintock.

STATEMENT OF CYNTHIA MCCLINTOCK, PH.D., PROFESSOR OF POLITICAL 
SCIENCE AND INTERNATIONAL AFFAIRS, DIRECTOR, LATIN AMERICAN AND 
 HEMISPHERIC STUDIES PROGRAM, THE GEORGE WASHINGTON UNIVERSITY

    Ms. McClintock. Chairman Engel, Congressman Mack, members 
of the subcommittee, thank you very much for the opportunity to 
testify this morning. I would like to recommend a new tone of 
respect for Latin America and new policies on Cuba, drug 
control and immigration. My expectation is that this will help 
reverse the recent deterioration in the relationship between 
the United States and Latin America that was highlighted by Mr. 
Bendixen.
    Just to supplement some of his figures, consider that in 
surveys between 2000 and 2005, approval ratings of the United 
States fell by 20 points or more in countries that were our 
friends--Chile, Brazil, Mexico. ``Mainly negative views of the 
United States were held by more than 50 percent of the people 
in those three, again, friendly countries.'' Unfortunately, 
George Bush was among the hemisphere's most unpopular leaders, 
tied with Hugo Chavez.
    What went wrong? As elsewhere, overwhelming majorities 
opposed the United States war in Iraq and the U.S. treatment of 
detainees at Guantanamo. Also, the administration's welcoming 
of a 2002 coup against President Hugo Chavez dismayed the 
region's leaders. Further, as Mr. Bendixen has highlighted too, 
we face new competition in the hemisphere. China is playing a 
much larger role, and the Latin American nations themselves 
grew economically and have been forging their own foreign 
policies.
    This is true, as has been mentioned, for Brazil and of 
course for Venezuela. There was one estimate that Venezuela is 
spending five times as much as we are on foreign aid. Of 
course, that is one of the ways it has been courting allies in 
the hemisphere. As Chairman Engel mentioned, this situation has 
been helped by the election of Barack Obama.
    At the same time, it hasn't been helped, obviously, by the 
global financial crisis. Rightly or wrongly, this crisis has 
been blamed on us by many Latin Americans. I couldn't agree 
more also with Chairman Engel that there is a wonderful 
opportunity for President Obama at the Fifth Summit of the 
Americas in Trinidad and Tobago in April. I think it is crucial 
that he listen at this event just as has been said, and also 
hopefully that he can reach out to Hugo Chavez and Evo Morales 
there.
    In my view, the President's priorities should be Cuba, drug 
control and immigration policies for several reasons. This 
isn't to say that I disagree with many of the initiatives that 
have already been mentioned by others, but I think it is 
especially the case with these three policies that they have 
been in place for a long time and it has really become clear 
that our current policies have failed.
    There was a recent excellent Brookings Institution report 
just 2 months ago that elaborated very clearly the need for 
change in these policies. Also, Latin Americans have rejected 
these policies, so by changing them it is especially clear that 
President Obama is listening to what Latin Americans want.
    With respect to Cuba, of course for nearly half a century 
the United States has maintained a trade embargo and other 
sanctions against Cuba with the hope of a democratic 
transition. I certainly share that hope, I share that concern 
about political prisoners. This is abominable. Unfortunately, 
our policy has not succeeded. We are confronted with U.N. 
sanctions, we are confronted by repudiation in the United 
Nations and other forums. Every other government in the 
hemisphere has diplomatic and economic relations with Cuba, and 
also very important, more than 60 percent of Americans favor 
free travel to Cuba and United States trade with Cuba, so I am 
with that 60 percent.
    I think it is an excellent moment to change our policy 
toward Cuba precisely because of the election of an African-
American. His support in Cuba and his reaching out to Cuba will 
make it much more difficult for the Castro brothers to blame 
the United States for Cuba's problems.
    With respect to drug control, again, this is a policy that 
has failed, and large majorities of Americans recognize that it 
has failed. We have been spending about $20 billion annually 
but U.S. drug use has not declined since the early 1990s and 
the price of cocaine has fallen. In the Andean region as a 
whole, despite large expenditures, coca cultivation in 2007 was 
at a 20-year high. What should be done? Chairman Engel 
mentioned a very important point that is mentioned very, very 
frequently by the Mexicans in particular, trying to get a 
handle on the guns that are smuggled across our border that 
originate in the United States and that fuel these drug wars.
    Also, most Latin Americans want an end to coca eradication 
and fumigation and the replacement of those policies with real 
support for alternative development, which of course fits into 
the goals of poverty reduction, and especially reduction of 
rural poverty. Much more controversially, and I recognize that 
this could be a minority view, but I think it is time to 
consider after 20-plus years whether or not supply reduction 
efforts really have any chance to succeed.
    In my own view, there is just too much land in the Andean 
countries, there is too much money for the traffickers and it 
is just not unfortunately going to happen in my view. Ideally, 
and again, I know this is controversial, but it seems to me 
that if the use of marijuana and cocaine were decriminalized, 
we could go a long way to reducing drug-fueled organized crime 
and drug-fueled insurgencies in the region.
    Unfortunately, a third failed policy is immigration, which 
has been based since the mid-1990s primarily on border patrol. 
Since 1996, the number of border patrol officers has more than 
tripled and a 700 mile long, 16 foot wall is being constructed 
at the cost of about $9 billion. However, the possibility that 
an illegal immigrant is apprehended at the border has not 
increased; the number of illegal immigrants from Latin America 
in turn has gone up by some 40 percent.
    Further, from the point of view of our Latin American 
friends, the wall, and also, unfortunately, the frequently 
demeaning treatment that Latin Americans receive when they seek 
visas at United States Consulates are deeply alienating in the 
region. The Brookings Institution and I believe that the 
prospects for control of illegal immigration are much better at 
the workplace than at the border.
    Laws against the hiring of illegal workers should be 
strictly enforced and fines increased at the workplace, and the 
technology facilitated to make that happen. Also, it is really 
not acceptable in Latin America or here that immigrants' work 
be welcomed, but yet they, and their families, have to live in 
the shadows. Almost two-thirds of U.S. voters support a path to 
citizenship for illegal immigrants who pay taxes, pay a penalty 
and learn English, and I am in that group.
    As I said, none of this doesn't mean that I don't agree 
with other initiatives that were advanced, certainly efforts of 
poverty reduction, energy partnership, would be very desirable, 
but I think that given the emphasis by our President on the 
need for change, it is with change in these policies that we 
could most clearly signal those changes. Thank you, Mr. 
Chairman.
    [The prepared statement of Ms. McClintock 
follows:]<greek-l>McClintock deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Dr. McClintock. Mr. Farnsworth.

 STATEMENT OF MR. ERIC FARNSWORTH, VICE PRESIDENT, COUNCIL OF 
                          THE AMERICAS

    Mr. Farnsworth. Thank you, Mr. Chairman. Thank you for your 
kind comments earlier. I appreciate that very much. It will be 
good to work with you again in the 111th Congress. Mr. Mack, 
congratulations to you. We look forward to working with you 
again and other members of the subcommittee, Mr. Meeks and 
others. We have a very good relationship and anticipate that 
continuing.
    This is an important and timely hearing. This has already 
been talked about both by the subcommittee members, as well as 
the witnesses. We think that there is a tremendous opportunity 
in the coming weeks and months to work with willing hemispheric 
partners in a pursuit of a mutually beneficial agenda.
    A spirit of good will and cooperation with the United 
States exists across much of the hemisphere, but we have to 
realize that the expectations right now are exceedingly high 
and they have to be managed on all sides. Even so, now is the 
right time to really try to advance concrete steps to build 
this agenda.
    Let me posit, if I could, the first, most obvious point, 
which cannot be overlooked. The best way to assist the 
hemisphere at this point would be to fix the U.S. economy, 
resisting any understandable but ultimately self-defeating 
impulses toward trade and investment protectionism. If the 
current economic crisis has proven anything, it is that Latin 
America remains dependent on the United States for its own 
well-being, both directly through trade and investment flows 
with the United States and indirectly through commodities 
exports to Asia.
    Regardless of politics or ideology, the region remains 
hungry for investment from the United States and trade with the 
United States. Were we to do nothing else, restoring the U.S. 
economy while doing everything possible to keep markets open 
and investments flowing would do the most to return much of 
Latin America to precrisis growth levels.
    Of course, there is much additional work to do. The Fifth 
Summit of the Americas, which has already been raised, to be 
held in April in Trinidad and Tobago will be a prime 
opportunity to consider an agenda for renewed hemispheric 
growth and development. With this in mind, the Americas Society 
Council of the Americas, has issued a major working group 
report laying out several priorities for the summit, including 
financial recovery, energy security and climate change, 
microeconomic reforms and capacity building and workforce 
development.
    Concentration on these issues, we believe, will do the most 
to help restore a regional growth agenda and to build prospects 
over time. Mr. Chairman and members of the subcommittee, the 
repercussions of the economic crisis will almost certainly be 
broader and deeper than originally anticipated. Despite years 
of badgering by economic development specialists, many at this 
table, the region continues to rely primarily on global 
commodities markets for growth, and commodities from 
agriculture, to oil, to zinc have taken a beating.
    Even before the economic crisis hit, roughly a third of the 
region's population was living in poverty. Some governments, 
like those in Brazil, Chile, Colombia, Peru, were making solid 
progress reducing poverty and building a stable middle class. 
Other countries were stagnating as populist policies 
overwhelmed sound economics. But now, prospects have 
deteriorated throughout the region.
    This can have profound implications, we believe. Democracy 
remains the accepted organizing framework for hemispheric 
governance, but antidemocratic steps in some countries are 
proving worrisome. To the extent populations become restless 
for improved economic conditions and a newly emerging middle 
class is squeezed, fragile democratic institutions could come 
under added strain.
    Despite our efforts to build democracy elsewhere around the 
world, we cannot be complacent about such matters closer to 
home. The development of a new hemispheric growth agenda, we 
believe, is therefore critical. In the immediate run, a focus 
on access to credit, trade finance and infrastructure 
development would help keep hemispheric economies from seizing 
up.
    Economic stimulus programs can be appropriately considered, 
although we do have to remember Latin America's history with 
hyperinflation and one has to be cognizant of that. Over the 
longer term, education and workforce development issues, 
infrastructure and the rule of law must also be addressed. The 
United States can play a very important role here through 
technical assistance, Millennium Challenge support, increasing 
the countries, frankly, in Latin America which are eligible for 
Millennium Challenge support. The list goes on, but we can play 
a very important and positive role.
    Open markets also hold a key to economic recovery and 
longer term growth and job creation. As we saw in the aftermath 
of the Mexico peso crisis in the mid-1990s, keeping markets 
open contributes significantly to quicker and more robust 
recovery. As an aside, the President would go to Trinidad and 
Tobago for the summit with a much stronger hand on these 
issues, and overall, if we pass the trade agreements that have 
already been talked about, Colombia and Panama, which are 
manifestly in U.S. strategic and economic interests.
    Growth would also be supported through implementation of an 
energy partnership of the Americas, which President Obama has 
spoken about. Finding a path forward to increase traditional 
and nontraditional energy supplies, encourage conservation and 
build a coordinated regional approach to climate change would 
be a significant contribution to the agenda, as well as to our 
own daily lives.
    More broadly, I believe the United States must also 
continue to place special emphasis engaging with Brazil. 
Several steps could quickly be pursued. Among them, inviting 
Brazil to join in the G-8, but in any event, Brazil is a nation 
that cannot be taken for granted, either in the hemispheric or 
the global context.
    In particular, Brazil's emerging super power profile on 
traditional and nontraditional energy and environmental issues, 
along with an active and constructive participation in the 
global nuclear nonproliferation regime, point to prospects for 
heightened cooperation on energy and global climate change 
issues, for one. Yet, even as we look to Brazil, we cannot 
overlook Mexico.
    The reality is that United States relations with Mexico 
will always be the most intensive and complex of all our 
relations with Latin America. Nurturing them is perhaps our 
most urgent regional task. President Calderon's courageous 
actions against the illegal cartels have provoked a 
predictable, violent backlash.
    The sad reality, and we have already heard about this, both 
from members as well as people giving testimony, the sad 
reality is that much of the fire power fueling this downward 
security spiral, in addition to the demand for the illegal 
drugs and other products in the first place, comes from the 
United States.
    Even during difficult economic times full support is 
imperative for the Merida Initiative for Mexico and Central 
America, which you, Mr. Chairman, have championed, and others 
on the subcommittee have championed. I also want to commend 
your leadership on border affairs and some of the other issues 
you have already talked about. There are many other issues to 
discuss, and time is limited, but I want to thank you again for 
the opportunity to testify before you. I look forward to your 
questions.
    [The prepared statement of Mr. Farnsworth 
follows:]<greek-l>Farnsworth deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Engel. Thank you, Mr. Farnsworth. This makes up for the 
time I kept you waiting in my office and never showed up. Dr. 
Walser.

STATEMENT OF RAY WALSER, PH.D., SENIOR POLICY ANALYST FOR LATIN 
 AMERICA, DOUGLAS AND SARAH ALLISON CENTER FOR FOREIGN POLICY 
                STUDIES, THE HERITAGE FOUNDATION

    Mr. Walser. Mr. Chairman, distinguished Members of 
Congress, it is an honor and a privilege to be here again 
before the subcommittee on the Western Hemisphere. I feel like 
the person who comes into the candy store and all the ideas 
have been picked over, so I hope to add maybe a couple of new 
ideas. I will try to move away from my prepared testimony. I 
left a large stack with 10 different sorts of recommendations. 
I will try to narrow them to five recommendations for your 
consideration.
    The first one of my recommendations is do not disparage the 
Bush administration's achievements. Build on them in the 
future. In 8 years in office, the Bush administration doubled 
foreign assistance budgets, created the Millennium Challenge 
account--I don't think we have heard that mentioned here--
launched PEPFAR. They took fairly substantial interest in the 
hemisphere.
    The MCC, with its long-range, performance-based approach, 
has a place in the mix of development strategies for the 
future. One hopes the compacts for El Salvador, Honduras and 
Nicaragua will be able to progress and that fresh attention can 
be given to the developing rural Guatemala and southern Mexico, 
both significant sources of illegal migration to the United 
States.
    During the Bush presidency, Congress, with bipartisan 
support, passed free trade agreements with Chile, Central 
America, Dominican Republic and Peru. Obviously, we know that 
the agreements with Colombia and Panama await congressional 
approval, and action should be taken upon them as quickly as 
possible.
    Plan Colombia, begun under the Clinton administration and 
continuing under the Bush administration, achieved remarkable 
improvements in security and reductions in levels of violence 
and crime. The presence of the Colombian Government extends 
much deeper into the countryside than at any point in the past. 
A continued projection of a mix of civilian, law enforcement 
and military elements is needed to broaden the capacity of the 
Colombian state to curb the armed extremes of the paramilitary 
right and the FARC left.
    The Security and Prosperity Partnership for North America 
advanced the concept of working with Canada and Mexico to 
develop a closer relationship which improves efficiency and 
competitiveness while enhancing security. We should, however, 
make sure that all SPP deliberations will be conducted in a 
fully transparent manner and be presented for public scrutiny 
and debate before being implemented as regulation or law.
    I agree the drug issue is fundamental. We really do need a 
new bipartisan approach. I clearly endorse the idea of moving 
forward, supporting Mexico with the Merida Initiative. The one 
thought that occurred to me was the possibility that we go back 
to the 1980s and look at what President Reagan did when faced 
with the Central American crisis, which was to create a high 
level, bipartisan commission on drug policy.
    Try to reignite the bipartisan consensus, look at those 
elements of our past drug policies that do not work and move 
forward. It is very critical that we get a handle upon it. Yes, 
consumption in the United States continues to drive a major 
problem, major insecurities in the Western Hemisphere, and we 
really must do something about it.
    I think that one of the things we must do is to develop a 
bold initiative. My choice for this bold initiative is 
education. Many look back with nostalgia at the Marshall Plan 
for wore torn Europe or JFK's Alliance for Progress. We 
recognize the continued need for policies that aim high and 
reflect our best intentions. The United States moreover needs a 
bold headline capturing initiative that is capable of touching 
the lives of ordinary Latin Americans.
    Education is the key to permanently reducing poverty and 
making more equitable societies. The United States is well-
positioned to present a broad, multifaceted educational 
initiative. Rejuvenating programs at the higher education level 
could be a signature initiative for the new administration. It 
can reach directly to future leaders and spur innovation in 
sciences and technologies, areas where Latin America lags 
behind on the global scale.
    President Obama should consider creating a senior level 
voluntary western hemispheric education council to energize and 
revitalize the gamut of educational strategies and 
opportunities.
    Clearly, the debate on Cuba is not going to go away. I 
believe that we need a freedom agenda for Cuba. It is important 
to keep clearly in focus the fact that Cuba, after 50 years 
under the revolutionary anti-American Castro brothers, remains 
a totalitarian state, an ideological dinosaur and an island 
prison with a stronger kinship to the regimes of Stalin and Mau 
than to modern social democratic states.
    While the desire to move barriers that separate Cuban 
families and presumably infringe upon rights to free travel for 
United States citizens is commendable, it is important to 
remember that Cuba's restrictive bureaucratic regime, with its 
rigid controls and dual currency system, is skilled at skimming 
as much as possible from every fresh resource of foreign 
currency in order to perpetuate the regime strangle hold on 
Cuban economic life.
    New flexibility and openness to travel and wider contact 
with Cuban society should be accompanied by demonstrable 
relaxation of the repressive political and economic controls of 
the Castro regime that have impoverished and repressed Cubans 
and left the island's once vibrant economy in shambles. Efforts 
to remove United States administrative and legislative 
restrictions on travel and trade with Cuba should be calibrated 
with reciprocal changes that free political prisoners, allow 
the growth of civil society, remove restrictions on speech, 
access to information, including the internet, and travel.
    Empowering the Cuban people rather than extending an 
economic lifeline to the moribund Communist regime should 
remain at the core of a new Cuba policy.
    Finally, don't bend over to appease Hugo Chavez. The 
challenge of dealing with Venezuela's Hugo Chavez is 
considerable. He is an outsized populist authoritarian, a study 
in contradiction to the country torn between an impulse to 
populist class or unit socialism and the preservation of 
political and economic pluralism.
    While Chavez enjoys a significant following among 
Venezuelan citizens and is lionized as Fidel Castro's 
successor, his ability to construct a viable domestic economy 
and a system for sustainable social development are subjects of 
fierce debate. The battle for the political soul and future 
direction of Venezuela is for its people to determine, but the 
United States has a legitimate, if still undefined, role in 
working with the majority of Venezuelans who I believe do not 
desire to surrender their civic rights and freedoms to a 
monolithic President for life.
    The referendum on February 15 on altering the Venezuelan 
constitution to remove term limits will say much about the 
nation's political future and viability of Chavez' Bolivarian 
revolution. The primary concern of the United States is dealing 
with a leader who routinely insults the U.S. and warmly 
embraces every rogue and tyrant from Fidel Castro and Robert 
Mugabe to Mahmoud Ahmadinejad.
    Moreover, he seeks to become the energizing axis for Latin 
America's socialist integration, as well as a pivotal player in 
a new world order that he hopes will freeze out capitalism and 
globalization and weaken the U.S. Sending an ambassador to 
Caracas ought to be quietly placed low down on the White House 
to do list.
    A United States ambassador should not be sent to Caracas 
without a comprehensive, tough-minded strategy, one that 
focuses foremost on actions harmful to U.S. interests, such as 
drug trafficking, potential links to radical Islamist 
terrorism, support for the FARC and fronting for Iranian 
sanctions evaders. There needs to be a serious and satisfactory 
attempt by both parties to resolve differences before seeking 
agrimon for another potential sitting duck of an ambassador. I 
thank you for your time. I look forward to answering your 
questions.
    [The prepared statement of Mr. Walser 
follows:]<greek-l>Walser deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Engel. Thank you, Dr. Walser.
    Let me start with the questions. A number of you, 
particularly Mr. Farnsworth, so I think I will start with you, 
mentioned the global economic crisis and how we can best help 
the Western Hemisphere. Obviously because of the financial 
crisis, our ability to provide increased aid and trade 
opportunities for the hemisphere may be more limited than we 
would like. What actions could President Obama take in the 
hemisphere that could be cost neutral, or a little bit cost 
neutral, but symbolically important.
    When he goes, hopefully, to the Summit of the Americas in 
Trinidad and Tobago in April, should he use the summit as an 
opportunity to role out a major new initiative in Latin America 
or would it be more useful for the President to simply attend 
and listen?
    Mr. Farnsworth. Well, thank you for the opportunity. I 
think that those are both upstanding questions, and let me do 
what I can to see if I can add some thoughts. In terms of the 
immediate financial crisis, I think what the Federal Reserve 
has done in terms of opening the facilities for Mexico and 
Brazil and other countries I think is very, very good. That is 
the type of creative, forward looking thinking that is 
required.
    That obviously doesn't address the region as a whole. I 
think there are several things that can, and should, be done in 
that capacity. Number one is simply a process of consultation. 
Yes, the crisis might have begun in the United States, but the 
impact is felt throughout the world, certainly in Latin 
America.
    I think it would be entirely appropriate if senior members 
of the U.S. Treasury, of the Federal Reserve, of the White 
House, whatever is the appropriate vehicle, were in close 
consultation with their counterparts throughout the region, not 
just saying here is what we are going to do, but, frankly, 
asking for their thoughts as well in an actual consultative 
process. I think that is number one.
    I think a regular series of meetings at the margins of the 
IMF and World Bank annual meetings could be something that 
would be very productive to begin to, number one, put 
procedures in place and vehicles in place so that this crisis 
hopefully is not repeated, but certainly, even if it is, that 
there are early warning systems that are put in place so that 
people can react appropriately and with some sort of foresight 
and understanding.
    Other ideas that I think could be very useful, I mentioned 
inviting Brazil to join the G-8. Frankly, that should be done, 
but also, Mexico. The reason why, these are two very important 
economies, but the G-8 is the global coordinator of financial 
issues, and I think to have Latin American voices at that 
particular forum is relevant in this point in time, and it is 
certainly consistent with where the weightedness of those 
particular economies are going in their global impact. So I 
think that would be a very good thing to consider.
    The other thing I would mention briefly in this regard is 
something that actually President Lula mentioned at the Social 
Summit a few days ago. You know, President Lula was a labor 
organizer when he got his start, but he quite clearly, and was 
quoted as saying to the United States: ``You need to keep 
markets open, you can't revert to protectionism.'' Here is a 
former labor organizer telling the United States the best thing 
you could do for us right now is keep your markets open.
    That is not a financial issue, per se, but it is directly 
related and it would help Latin America's largest economy, and, 
frankly, the rest of the economies, to get back to the growth 
path. I think that is the primary issue.
    In terms of the summit, my personal view is that, and I 
went to the first summit in Miami with President Clinton, I was 
part of the summit package in Santiago in 1998, I have been 
around the Summit of the Americas process since the very 
beginning in my professional capacity, and I have to say that 
it can be a very good vehicle and a very effective vehicle to 
bring the leaders of the hemisphere together, to sit in one 
place, to get to know each other, to develop the relationships 
that drive the overall national relationships. I think it is 
very, very positive.
    At the same time, this is happening so early in the 
administration. There are many new faces around the table and 
we already have seen that much of what the hemisphere wants is 
to have a voice in the process. My personal view is that at the 
summit a very valuable aspect of that would be to go and listen 
and to hear what the rest of the hemisphere is saying. Yes, the 
President of the United States can't go with empty pockets, 
can't say, ``I have no ideas.'' That is not what I am 
recommending.
    I am saying that the rest of the hemisphere also has good 
ideas, and I think if we came with a precooked major 
initiative, whatever and however well-meaning that would be, 
that could actually backfire. So I think that we need to have 
the summit begin a process, not be the end of a process.
    Mr. Engel. You know, Mr. Farnsworth, it is interesting that 
you say that because one of the things that I have been saying 
in the 2\1/2\ years that I have been chairman of this 
subcommittee is as we go around to all countries, it doesn't 
matter whether it is in the Caribbean, or in South America, or 
in Central America, the one thing that is there all the time is 
that people feel or the governments feel that the United States 
has been disengaged, that we have not been engaged, engaged in 
a respectful way, you know, not where we are telling people 
what to do because we know better, but having a dialogue with 
our partners and our sisters and brothers in the same 
hemisphere, in our own backyard.
    I am a big believer, and that is why our subcommittee has 
travelled and we have gone and we have met with heads of state 
in all these countries, both on the left and on the right. It 
is amazing, you know, except for a few, they really want to 
have better relations with the United States, regardless if 
they are on the left or on the right.
    One of the things that I really believe is that engagement 
for the United States is not only the right thing to do for the 
Western Hemisphere, it is the right thing to do for the United 
States because if we are disengaged, and if we create a void 
and a vacuum, others will rush in to the vacuum. We have seen 
that happen with the Chinese, we have seen it happen with the 
Iranians, we have seen it happen to a lesser extent with the 
Russians, and of course we see it with Hugo Chavez and his 
nonsense.
    So we need to be engaged for us, but also for the other 
countries in the Western Hemisphere. I hope that that is the 
policy that the Obama administration will articulate, one of 
engagement. Now, we have plenty of problems all around the 
world, and I am not suggesting that we disengage from the 
Middle East or we disengage from some of the other places, but 
I think we are able to juggle a few balls in the air and we are 
able to say that our own backyard is important to us, not at 
any other expense of any place around the world, but we cannot 
ignore our own backyard while we are doing all these other 
things.
    I hope that that is what the Obama administration will 
show, that we are not any more disregarding or not engaging our 
own backyard.
    Mr. Farnsworth. I completely and totally agree. I think 
that, you know, I have had some similar conversations, and you 
ask, well, what is the nature of the engagement that you are 
actually looking for? What determines in your mind what is 
engagement? Oftentimes, it is simply a matter of having a seat 
at the table and having a voice and being consulted. It is not 
to say they are always going to agree or we are always going to 
agree. That is not the point.
    But to actually have that discussion, I think that is very 
valuable and that can begin a process with the--you know, you 
have, again, a very wonderful opportunity right now to use the 
spirit of reconciliation in the hemisphere toward the United 
States, but I don't think that window is going to remain open 
forever, and so if we can take some steps now that will begin a 
path, begin a process, I think that would be time very well 
spent.
    Mr. Engel. Let me just say, and this is the last comment I 
will make before I turn it over to Mr. Mack for questions, no 
matter where we went in the hemisphere we had these press 
conferences, you know, and we thought we were doing so well, 
but after the election, or even before the election, the only 
thing the media wanted to know about was Barack Obama.
    He was such a rock star in every country we went to. It 
didn't matter whether we were in Chile or Paraguay. Everywhere 
we went to, people wanted to know about him. And, so I think 
that we have a tremendous opportunity here and the 
administration has a tremendous opportunity here to change the 
perception, to change the feelings.
    As was mentioned before, there are negative feelings on the 
street about the United States. While we don't conduct our 
policy because we want people to feel good about us, why 
shouldn't we want to have people feel good about us? I think 
there are enormous opportunities in the Obama administration. 
Mr. Mack?
    Mr. Mack. Thank you, Mr. Chairman. I guess my first 
question is for Mr. Bendixen. I was very interested in your 
testimony and want to give you an opportunity to expand on it a 
little bit. You talked about, I guess, two Americas, and you 
outlined the differences between the two. I would like to focus 
for today a little bit on those that would be considered our 
friends and allies. If you could talk a little bit about the 
strengths that we already have and what you believe we could do 
from a policy position to support to continue those 
relationships as well.
    Mr. Bendixen. Sure. First of all, we have to be realistic 
not only about what our friends want but what all of Latin 
America wants that I don't think it is possible right now. If 
you listen to the Presidents, the politicians, public opinion 
in Latin America, they want us to end the embargo to Cuba. That 
is not going to happen. They want us to end our agricultural 
subsidies which they consider to be tremendously important in 
terms of their ability to progress economically. That is not 
going to happen.
    You hear this a lot on television. They want us to spend as 
much money as we spent on the war in Iraq and help create a 
Marshall Plan for Latin America. That is not going to happen. 
We have tremendous economic limitations.
    In countries like Colombia, Peru, Mexico, Central America, 
which, as I mentioned, are still what you might call very 
friendly countries, countries that are our allies, our friends, 
there is tremendous respect not only for our Government and for 
our new President--which, by the way, I think is also popular 
in other places, it is just the opportunities aren't there for 
much progress. But I think culturally there is a history there 
that is very powerful.
    Now, since we cannot really devote many economic resources 
to those countries right now, I think the most important thing 
we can do is open up trade. I think the chairman asked about 
the Summit of the Americas in Trinidad in April. I don't think 
President Barack Obama is going to be able to bring a new 
initiative that costs billions and billions of dollars. It is 
just not going to be possible under our economic reality.
    If he could announce at that summit that finally he has 
figured out a way to get the U.S. Congress to approve the free 
trade agreement with Colombia, and why not Panama, that would 
be a tremendous symbolic signal to Latin America that we are 
now moving in the direction of not only engagement, which the 
chairman was mentioning, which is also very important, but 
actually doing things that help the countries that have proven 
already over the last few years to be on our side and have been 
our allies not only in terms of policy but also at the United 
Nations and the OAS and other international organizations.
    Mr. Mack. Thank you. You know, I couldn't agree with you 
more. I think that we have been working and fighting a long 
time to get a vote on the free trade agreement with Colombia 
and also Peru, Panama, so, you know, that would be a tremendous 
way for the United States to extend our hand to our friends.
    The next question I would like to ask Dr. Walser about, and 
that is the upcoming elections in Venezuela where Hugo Chavez 
is once again asking his country to make him President for 
life. I wanted to see if you would talk a little bit about what 
you think that would mean for Venezuela, but also for Latin 
America, with the influence that Chavez is trying to spread 
through those that aren't our friends in Latin America.
    Mr. Walser. Well, I hate to claim to be an expert on 
Venezuela, but for the moment, I will at least try to make a 
few predictions. Clearly, he sees February 15 as the 
opportunity to sort of seize the initiative. My understanding 
is from the analysis of the Venezuelan economy that it is 
headed toward serious problems, given obviously the decline in 
the price of oil.
    Chavez has built an economy that stills relies upon the 
expert of all earnings for roughly 96 percent of its overall or 
gross export earnings. Something like 50 percent of its 
budgetary earnings come from the oil industry. It is a country 
which has become far more dependent upon the export of oil, so 
clearly the declining price and the promises that he has made, 
are sort of headed toward a train wreck, as one might say, so 
he has advanced the effort for the referendum for February 15.
    He says that this is the defining point that will enable 
him to spend at least another term to install his Bolivarian 
revolution. Obviously, a defeat of that referendum will raise 
very significant questions about the future of Hugo Chavez in 
Venezuela, very serious questions about the nature of his 
revolution. Victory will clearly open the door for continued 
efforts by the Venezuelan opposition and we will still have 
parliamentary elections.
    In the elections in 2012 he would still have to stand for 
office. So it is not a sure path for Chavez. I think the 
overall implication at this particular point is that the money 
train has sort of run out, and we are going to see where Chavez 
positions himself in the months and years ahead without oil at 
$120, $140 a barrel.
    So he is facing some very serious domestic constraints 
which are going to alter, I think, in the next couple of years 
his position, his opportunity to influence events in the 
Western Hemisphere and that, as I think was said earlier, 
crisis opens up opportunities. It certainly opens up 
opportunities for us to try to, as the chairman and others have 
said, engage in the Western Hemisphere. So it is going to be an 
acid test but I don't think it is the final test.
    Mr. Mack. Thank you.
    Mr. Engel. Thank you, Mr. Mack. Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman. I have got a few 
questions, and of course I have first got to express some 
concerns also because I think what the opportunities that I 
think that presents itself with the crisis that we are 
currently engaged in is to change the way that we have been 
dealing with South America and Central America, especially when 
it seems as though we are doing it with the Cold War attitude. 
Picking, you know, who can do this or that as we did in the 
Cold War.
    We should be moving to change and going in a different way 
and looking at South America and Central America in a different 
way because that is exactly what we are talking about that they 
don't want. They don't want us just to come and tell them this 
or that or this is our friend as we did in the Cold War. Here 
is opportunity to change. We have got to make sure that we take 
advantage of it.
    I agree with certain things. I mean, clearly I think that 
would send a strong message is if in fact, and I found that 
there is countries whether or not wherever they may be that say 
we should pass a free trade agreement with Colombia. They agree 
on that. Some who lean to the left. So I think that would be a 
message that us not telling them but we listening to them. That 
is change.
    It helps bring all of them together because, whether we 
like it or not, they are interrelated. The politics of 
Venezuela is related with Colombia because they trade with one 
another. And so for us to try to pick winners or losers and 
dividing the continent I think is an old way of thinking and 
here is the opportunity of a new way of thinking and going 
forward.
    Now, I think that the chairman is absolutely correct in 
that we have got to think of some new and inventive ways that 
we can come down to Trinidad, et cetera, to figure out what can 
we do? How can we make a difference given the fiscal 
constraints that we have? I was meeting with some last evening 
and we were talking about the roles that, for example, the IMF 
may have.
    I understand that they have a stigma, was the word that was 
told by me, because most countries say that if they go into the 
IMF that shows that their economies are weak or about faltering 
and they don't want that stigma placed on them.
    So my question to Dr. McClintock first, and whoever else, 
is do you see any roles for, whether it is the IMF, or the 
World Bank, or any of the IFIs in the region that could be 
beneficial, that, you know, could help where we might not be 
able to come up with some money without having the stigma 
placed upon those nations and/or putting them in a severe debt 
as, you know, some of the countries were placed under when they 
were able to take some of those loans before which causes them 
also to have a bad relationship or bad look when you talk about 
the IFIs?
    Ms. McClintock. Yes. You know, I agree. I think that there 
is definitely a role for, you know, the international banks in 
consultation with us and the Latin American countries in 
providing low interest loans and enhancing new investment. I 
agree with Mr. Farnsworth that the summit is an ideal place to 
begin more of those discussions, to get together. So I think 
those are crucial.
    One point I would like to mention that agrees with the 
spirit of your comment is that Latin America at the moment is 
divided between the socialist, you know, and the market 
friendly, but that is this particular moment. I think all the 
incumbent governments are going to be hurt by the global 
financial crisis. What that means for us, as Mr. Walser was 
saying, it is good news regarding Venezuela, this undermines 
Hugo Chavez, but by the same token, it does hurt some of our 
friends, so I think it is a delicate moment.
    We just have to be sensitive to the ways in which these 
crises and problems are going to affect. My own hope is that, 
you know, as we engage and as we listen, we undercut Hugo 
Chavez, we undercut Fidel Castro, and that helps everybody in 
the long run.
    Mr. Meeks. One of the other things that I think, though, 
that is in common, and then I am going to go to you, Mr. 
Farnsworth, and ask you the same question that Dr. McClintock 
answered, but one of the things that I think that we have 
neglected to say that has taken place over the last few years 
where, whether they are left leaning, or socialist leaning, or, 
you know, part of a free market is that democracy. There have 
been elections.
    Each leader has been elected by the people. There has been, 
you know, no coup d'etats, except for the one that was 
attempted in Venezuela in, what was it, 1991, 1992? There have 
been elections. As a result of some of those elections, for the 
first time individuals who are indigenous to the countries were 
elected President from people who were never heard of, or heard 
from, or participating in elections before.
    There were never given any services or any attention before 
by governments prior to the election of these Presidents. No 
one seemed to have cared and said anything. These were 
elections. They are continuing to elect. In Venezuela there was 
a referendum where Chavez tried to get, you know, talked about 
extending the term limit before. The people of Venezuela said 
no. Nobody said anything to say that it was a free election or 
anything. They turned him down.
    We have yet to see what is going to happen on February 15. 
I was there at the election before as an observer and I saw 
lines that were miles long of people waiting to vote. I think 
that is progress that we should compliment and not just take 
for granted and say, you know, it is. So rallying around the 
progress that was made, because I like to look at the positive 
side. Mr. Farnsworth, same question. Where do you think we are 
headed?
    Mr. Farnsworth. Thank you for the opportunity. I couldn't 
agree more. In fact, what we are seeing in the electoral 
changes across much of the hemisphere are direct results of the 
fact that long overlooked whole populations, particularly in 
the Andes, all of a sudden have the franchise and they can 
elect, they can choose their leaders, through the vote.
    We can help with the democratic process, but ultimately, it 
is up to the people to elect their own leaders, and that is 
what they have done. In some cases, those leaders don't 
particularly like us. They have historical grievances; they 
have all kinds of things. That doesn't justify in some cases 
some of the behavior, but the fact of the matter is one can 
understand this, and it is a healthy development for democracy, 
I believe, in the region. Just exactly, Mr. Meeks, what you are 
saying.
    You are seeing that all throughout the region where, and 
particularly Mr. Faleomavaega is not here anymore, but the 
indigenous community has been the primary beneficiary of a 
broader franchise, again, through the Andes, through parts of 
Central America and what have you. I think that is a healthy 
development. Now what one needs to see as the next step as 
these democracies begin to mature to try to channel those very 
legitimate political aspirations into a healthy movement for 
the positive direction of their countries.
    Very quickly in terms of the questions that you asked on 
finance, and then I want to add one other quick topic about the 
broader, you know, left, right dichotomy.
    Mr. Engel. We are going to have to do it a little quickly 
because they are calling us for a vote, and I want to give Mr. 
Smith and Mr. Sires a chance.
    Mr. Farnsworth. Very quickly. There is a huge role for the 
IFIs. Yes, there is a certain status of the IMF in Latin 
America, but there is a huge role for the IFIs: Credit; access 
to credit; keeping the economies flowing; the World Bank in 
terms of not forgetting the least of the populations who could 
be touched by financial crisis; the Inter-American Development 
Bank; the Andean Development Bank. Huge role for those who 
would like to discuss it further.
    In terms of bringing the hemisphere together for a new day, 
one of the issues that brings us all together, whether as a 
supplier or producer, is energy. I personally think that energy 
should be, needs to be, a primary topic of discussion at the 
summit because whatever we think on the politics, look, we 
might not like Hugo Chavez and he might not like us, but we 
sure are doing business every day with that country, and so are 
other countries.
    Whether it is traditionals, nontraditionals, or biofuels 
from Brazil, or other countries working together, Brazil having 
a left-leaning government, our previous President was right 
leaning, to have those two countries cooperating so well on 
biofuels in Central America, in the Caribbean, these are 
logical areas that need to be expanded.
    It goes to your entire point about let us find the areas 
where we can cooperate, let us forget about, you know, who 
called somebody who in the newspaper yesterday and let us move 
forward in a cooperative agenda for the Americas. Thank you, 
Mr. Chairman.
    Mr. Engel. Thank you. Mr. Smith.
    Mr. Smith. Let me just say, Mr. Bendixen, to your comment 
about the 600 percent increase of exports from China to Latin 
America, we see the same kind of exponential increase to Africa 
as well, but we have got to remember, we helped enable that. 
When we lifted MSN and delinkage from human rights--and 
obviously there is no labor rights in China, they get 10 cents 
on the hour--the USTR looks scant and does nothing in terms of 
an unfair labor practice. We need to resurrect all of that and 
hold China to account.
    Secondly, let me just say to Dr. McClintock, you know, it 
is an excellent moment for change and you noted the Zogby poll. 
I believe that the Zogby poll asked as a precondition for 
opening up free travel and free trade with Cuba that there be 
the release of the political prisoners. There would be huge 
percentages of Americans who would say absolutely.
    I would hope that at the very least if President Obama 
moves in that direction he will insist that all of those 
political prisoners be released. Finally, the 1980 Hague 
Convention on civil aspects and international child abduction 
established, in principle at least, a transparent, predictable 
process to impartially adjudicate child abduction cases.
    The Hague Convention entered into force between the United 
States and Brazil on December 1, 2003, yet, the U.S. State 
Department determined in its 2008 compliance report that Brazil 
continued to demonstrate patterns of noncompliance with the 
convention in its judicial performance. On Friday, since I am 
being denied, and Frank Wolf, to go to Cuba to talk about human 
rights, I will be joining a man who lives inside of New Jersey, 
David Goldman, who has been trying for 4 years to not only 
obtain custody of his son but also to just see his son.
    His wife, who is now deceased as of August, sadly and 
tragically left to go on a vacation for 2 weeks and said I am 
not coming back. The Central authority and the other important 
people in the process in Brazil have not lived up to their 
sacred obligations under the Hague Convention. I am wondering 
if any of you would like to comment on this Hague Convention as 
it relates to these child abduction cases in general, relative 
to Brazil, and especially to the David Goldman case, if you 
would like. Appreciate it.
    Mr. Walser. I think you have a very valid point there. I 
don't think any of us at the table would question the 
importance of reciprocal actions in the observations by 
independent states of their international obligations, so we 
would support you and sustain you in your efforts.
    Mr. Engel. Well, thank you, Mr. Smith. I think this has 
been a very interesting and productive first hearing and we 
could go on and on. Obviously, there are so many issues, and 
the interest that has been generated is just fantastic. I just 
want to let everyone know that this subcommittee will continue 
to be active, we will have hearings. Our next hearing is March 
3 on Bolivia. We will continue to tackle the issues of the day.
    I want to again conclude by thanking my colleagues, 
particularly Connie Mack. I know we are going to have a very, 
very good year, 2 years, actually, with this subcommittee. 
Thank you all for attending.
    [Whereupon, at 12:54 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
[Note: The following material was submitted for the record but is not 
reprinted here: Florida Cuban-American Voters Survey by John 
McLaughlin, February 2009, McLaughlin & Associates 
(www.mclaughlinonline.com); Building the Hemispheric Growth Agenda: A 
New Framework for Policy by the Americas Society (AS) and the Council 
of the Americas (COA). They are available in the committee's records.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
